OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/MOROCCO’S
RESULTS ACHIEVED UNDER
THE COUNTRY STRATEGIC
PLAN WITH ACTIVITIES
ENDING IN FY 2004
AUDIT REPORT NO. 7-608-05-006-P
JULY 28, 2005




DAKAR, SENEGAL
Office of Inspector General


      July 28, 2005

      MEMORANDUM

      FOR:                     USAID/Morocco Director, Monica Stein-Olsen

      FROM:                    RIG/Dakar, Lee Jewell III /s/

      SUBJECT:                 Audit of USAID/Morocco’s Results Achieved under the Country
                               Strategic Plan with Activities Ending in FY 2004
                               (Report No. 7-608-05-006-P)

      This memorandum transmits our final report on the subject audit. In finalizing the
      report, we considered your comments on our draft report and have included them in
      their entirety as Appendix II.

      The report contains two recommendations for corrective action. Based on your
      comments to our draft report, we consider that a management decision has been
      reached for Recommendation No. 1. For this recommendation, please notify the
      Bureau for Management’s Office of Management Planning and Innovation when final
      action is completed.

      Based on our evaluation of your comments and all supporting documentation provided,
      we consider that final action has occurred on Recommendation No. 2. This
      recommendation is considered closed upon the issuance of this report.

      I appreciate the cooperation and courtesies extended to the members of our audit team
      during this audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................................1

Background ...................................................................................................................................2

Audit Objective ................................................................................................................................2

Audit Findings ...............................................................................................................................3

Did USAID/Morocco’s strategic objective programs achieve their intended results?......................3

     Mission Orders Need
     To Be Updated ..........................................................................................................................5

     Program Office Staffing-Related
     Weaknesses Should Be Addressed..........................................................................................6

Evaluation of Management Comments .......................................................................................9

Appendix I – Scope and Methodology ........................................................................................10

Appendix II – Management Comments .......................................................................................11
SUMMARY OF RESULTS
The Regional Inspector General/Dakar audited the reported results of USAID/Morocco’s
management of activities under the 1999 Country Strategic Plan to determine if activities
met their intended objectives. (See page 2.)

We were able to determine that, in general, these activities were programmed and
aligned toward achieving their objectives and contributed to the Mission’s overall vision.
Our review of results reported for selected indicators for four of the strategic objectives
showed that, for the most part, the results reported in the FY2005 Annual Report were
accurate and expected results were achieved. (See page 3.)

Although we were able to determine that, overall, activities had contributed to the
Mission’s goals, we did identify weaknesses that, when addressed, can further improve
USAID/Morocco’s management and control of activities associated with the current and
future country strategies. (See page 4.)

While in most cases the Mission was able to effectively monitor and control activities
associated with the strategy, not having updated Mission Orders related to data quality
and the management of performance data hampered the overall coordination between
the Program Office and the strategic objective teams. (See page 5.)

Furthermore, the Mission has been operating in a challenging and diverse environment
with less than optimal staffing levels for several years. This is particularly true in the
Mission’s Program Office, with the result that program objectives for this function were
more vulnerable to not being achieved or to experiencing irregularities. (See page 6.)

In view of these findings, we recommend that the Mission update its portfolio of
programmatic Mission Orders and address staffing-related challenges in its Program
Office by seeking permanent staffing solutions to meet authorized staff levels. (See
pages 6 and 8.)

In their response to our draft report, USAID/Morocco agreed with both
recommendations. Based on our evaluation, a management decision has been reached
for Recommendation No. 1 and final action has occurred on Recommendation No. 2.
(See page 9).

Management comments are included in their entirety in Appendix II.




                                                                                         1
BACKGROUND
Strategic Plans developed by USAID missions represent a commitment to accomplishing
a set of Strategic Objectives (SO) and Intermediate Results (IR). These Strategic Plans
provide a strategic vision and link the mission program to USAID policy and program
priorities in particular and to U.S. foreign policy in general.

USAID/Morocco’s Country Strategic Plan (CSP) of April 1999 outlines assistance for the
years 1999 to 2005, building upon past experience in four pivotal sectors: private
enterprise development/economic growth, water resource management, reproductive
and child health care, and basic education.

As of September 30, 2004, under the CSP of 1999, USAID Morocco was responsible for
awarding and managing over $96 million in approved funding throughout the life of the
strategic plan across activities associated with the four strategic objectives, along with
crosscutting activities under the Democracy and Governance program. Approved
funding for respective SOs was as follows.

SO Title                                                Approved level (9/30/2004)
                                                               in millions
SO5 – Private Enterprise/Economic Growth                          $ 35.4
SO6 – Water Resource Management                                   $ 25.2
Special Objective (SpO) 7 – Health                                $ 16.6
SpO8 – Education                                                  $ 13.6
SpO9 – Democracy and Governance                                   $ 5.6
Total                                                             $ 96.4

During the implementing period of its CSP for 1999 – 2005, USAID/Morocco faced many
challenges, including the request to close out the plan early. In July 2003, a carry-on
CSP covering fiscal years 2004 – 2008 was projected and approved at $30 million.
However, in January 2004 this figure was drastically increased to over $100 million.
Before this increase, the Mission had implemented a reduction of force based on initial
funding-level assumptions, reducing staffing levels from 54 to 26. With the increase in
funding, however, the Mission has requested and has been authorized a staffing level of
39 positions to carry out the expanded program requirements and is in negotiations with
the Embassy to bring staffing levels up to the authorized level. But until there is an
agreement on the on-board staffing levels, the Mission will be required to carry out all
programmatic requirements at its current reduced staffing levels.


AUDIT OBJECTIVE
In accordance with its fiscal year (FY) 2005 audit plan, the Regional Inspector
General/Dakar performed this audit to answer the following audit objective:

•   Did USAID/Morocco’s strategic objective programs achieve their intended results?

Appendix I contains a complete discussion of the scope and methodology of the audit.


                                                                                        2
AUDIT FINDINGS
Our selected testing of program activities indicates that intended results were achieved.
Moreover, our review of results reported for selected indicators in the Country Strategic
Plan for 1999 to 2005 shows that, for the most part, the Mission made progress in
achieving expected results and that the results reported were accurate. Nevertheless,
we did note weaknesses in the management of the program activities, especially related
to monitoring and evaluation. Unless corrected, these weaknesses leave the Mission in
a vulnerable position as it moves forward with the next Country Strategic Plan.

We selected 17 results reported in the FY 2005 Annual Report (and 3 from the FY 2004
Annual Report) to trace back to source documentation maintained by the respective SO
teams. In addition, we checked the reported results against documents maintained by
the contractors. For the most part, supporting documentation was provided and no
material errors were noted in the results tested. This is noteworthy given that the Mission
was not operating with optimal staffing levels during this period.

The Health SO reported achievement of various results in the FY 2004 Annual Report,
three of which we verified to the source documentation. There were no significant
discrepancies between the reported results and the source documentation. For example,
for couple years of protection (CYP), a measure of the estimated protection from
unintended pregnancy provided by family planning services during a one-year period, we
found that the planned targets were met in the selected regions and that there were no
significant differences in reported data at the regional and provincial levels.

Under the Economic Growth and Water Resource Management SOs, significant
achievements were also reported. For example, the Economic Growth team reported
that the time required to complete a case in a pilot commercial court decreased from 227
days in 2001 to 113 days in 2004, and the Water Resource Management SO team
reported the establishment of telemetry facilities for both drinking water and agricultural
purposes. Our site visits and testing confirmed the accomplishment of these results, and
we did not note any significant differences between reported results and the supporting
documentation.

In the FY2005 Annual Report, the Education SO reported achievement of results
through various indicator table and narrative results, six of which we verified to the
source documentation for accuracy. While there were minor discrepancies between the
reported information and source documentation, we did not consider them to be
material. For example, the Annual Report stated that a total of 374 girls had enrolled in
the Scholarship for Success program during FY 2004. When we compared these
reported results to the source documents maintained by the implementing partner, we
noted that 354 girls had enrolled as of September 30, 2004, end of the reported FY. We
deemed the reported discrepancy of 20 (5 percent) to be insignificant in this case.
In addition, the Annual Report showed that a total of 19 training modules had been
developed by USAID and adopted by the Ministry of National Education (MNE). We
were able to verify through a third-party consultant report that these modules had been



                                                                                         3
developed and adopted. We were also able to review some of the training modules at
the Mission.

USAID/Morocco made efforts to monitor its program activities even though staffing
challenges prevailed during the final years of the Country Strategic Plan. Our
discussions with various implementing partners and recipients, along with our review of
the project files, showed evidence of correspondence and ongoing communication
between the cognizant technical officers (CTOs) and the partners. This communication
included emails and memos related to submission and review of annual implementation
plans and quarterly progress reports, and records of site visits. Moreover, keeping
abreast of some Economic Growth activities was also facilitated by the co-location of two
contractors within the USAID compound.

Rigorous and careful monitoring of one of the Economic Growth activities was evidenced
by USAID/Morocco when it directed a change in the contractor’s Chief of Party due to
the Mission’s dissatisfaction with his performance. Another example of careful
monitoring was evidenced by the actions of the Economic Growth team, which was
responsible for managing various projects from the previous CSP while developing
strategy and implementation plans for the 2005 CSP. Similarly, the two-person
Education SO team finalized continuing activities while preparing for the $40.5 million
program for the new CSP.

During our field trip to the Agadir Region, the USAID/Morocco Health team was praised
for their diligence and involvement in steering activities associated with the USAID
Progress Project. Our discussions with regional government health officials and review
of program files revealed that the CTO was involved heavily in all aspects of monitoring,
including the definition of indicators in the performance monitoring plan (PMP), training
on data collection methods and accomplishment of data-quality assessments.

However, although results were achieved, we noted several weaknesses in the
management of the program activities. These weaknesses, originally identified in an
Office of Inspector General risk assessment conducted in 2004, were largely attributable
to (1) outdated Mission Orders and (2) inadequate staffing levels in the Program Office.

Among our observations were the following:

   •   Evidence that CTOs were not always proactively involved in steering contract
       activities to ensure that desirable results were ultimately achieved.

   •   Performance Monitoring Plans (PMPs) that were not always updated to reflect
       changes to indicators and targets or to incorporate results achieved over time.

   •   Several Mission orders related to programmatic requirements that continued to
       be out of date.

Furthermore, we noted that while Data Quality Assessments (DQAs) were accomplished
on some of the indicators, this information was not included, as required, in the FY 2005
Annual Report.




                                                                                       4
CTOs expressed a desire to be more proactive in conducting site visits to contractor
offices and project sites but were often unable to do so because of their heavy workload
and lack of adequate and clear guidance with respect to monitoring and evaluation.

The weaknesses associated with the lack of current Mission Orders and inadequate
staffing levels in the Program Office are further detailed below.


Mission Orders Need
To Be Updated



 Summary: Although USAID/Morocco issued several programmatic Mission Orders relating
 to data quality, monitoring and evaluation and documentation, the orders were out of date
 and needed to be updated to reflect the latest requirements and terminology. Mission
 Orders are developed to clarify policies or to assign local responsibility for the Agency’s
 Automated Directives System promulgated requirements in implementing and monitoring
 its programs and activities. Attempts to update the Mission Orders have been hindered by
 other, more urgent Program Office and Mission operational requirements. Lack of updated
 programmatic Mission Orders may impede implementation and monitoring of programs
 and activities.




In FY 2004, the Office of Inspector General located in Dakar conducted a risk
assessment to assess the vulnerabilities of the programs and activities of
USAID/Morocco after the Mission implemented a reduction-in-force. The October 6,
2004 report revealed that key programmatic Mission Orders (M.O.s) 304, 501 and 502,
among others, needed to be updated to reflect updated ADS requirements and
terminology. For example, the local Mission Order 501- Quality Control of R4 Data was
last updated in August 1997 while the source Automated Directives System (ADS)
section was last updated by the Agency in March 2004. The M.O. refers to the R4 report,
which had been superseded by the Annual Report several years ago. Furthermore, the
Orders do not include instructions or specific procedures to be followed to comply with
the intent of the order or the various ADS requirements. During our field work, we also
noted that these programmatic M.O.s were still out of date.

According to the Mission’s Program Office, there have been various attempts to update
the subject M.O.s, but there hasn’t been adequate support from the various strategic
objective teams and Management primarily due to excessive workloads and other
pressing and urgent priorities. The Program Office did take the initiative to draft an
updated M.O. 304 - Activity Monitoring and Evaluation, which provides guidance and
assigns local responsibility for monitoring activity implementation. However, the M.O.
was still awaiting finalization at the end of our fieldwork.

ADS 202.3.4.4 and 202.3.4.5 emphasize the importance of clarifying roles and
authorities. According to ADS 202.3.4.5, assigning clear roles and responsibilities to
individuals is necessary for effective teamwork and ultimate success of the program and



                                                                                       5
activities. Furthermore, ADS 202.3.4.4 encourages the use of M.O.s in assigning specific
authorities.

Without current local guidance in the form of Mission Orders based on updated Agency
requirements that provide guidance and assign specific responsibility for programmatic
requirements, the Mission may not be able to fully accomplish its role in implementing
and monitoring programs, activities and projects. Therefore, we are making the following
recommendation.


       Recommendation No. 1: We recommend that USAID/Morocco review
       and update, as necessary, its current portfolio of programmatic Mission
       Orders to incorporate the latest Automated Directive Systems
       requirements and terminology and that it assign specific responsibility for
       requirements as applicable.


Program Office Staffing-Related
Weaknesses Should Be Addressed


Summary: Weaknesses continue to exist in the Program Office such as not maintaining
supporting documentation, and not being able to coordinate overall monitoring and
evaluation requirements. These weaknesses impact overall design, assessment and
implementation of programs and activities. The Program Office has critical functionality
in ensuring that programs are designed and implemented to meet overall country
strategic objectives in accordance with the Agency’s Automated Directives System. As a
result of these weaknesses, due mainly to staffing shortages, the Program Office can not
fully accomplish its intended role.


The 2004 Office of Inspector General risk assessment revealed that the Program Office
staffing was drastically reduced from a staff of three key employees to a single Program
Officer. As a result, the various roles associated with the Program Office were not being
performed. The major duties and responsibilities of the Program Officer includes:

   1. leading the development of the Country Strategic Plan;

   2. participating in the programming and design of activities;

   3. coordinating the annual Activity Implementation Reviews (AIRs);

   4. managing the development and submission of the Annual Report;

   5. developing and maintaining budgeting and pipeline analysis; and

   6. ensuring that SO teams maintain a well-organized database for indicators in
      support of their respective Performance Monitoring Plans (PMPs).

While the Mission has been authorized a staff level of 39 for fiscal year (FY) 2006-2007,
it was operating with only 31 staff. The remaining eight unfilled positions are projected to


                                                                                          6
include three program-funded staff to manage activities related to the Middle East
Partnership Initiative (MEPI) and five critical positions to support the substantially higher
program levels (a threefold increase) that have resulted from unexpected modification
and eventual approval of the 2004 Country Strategic Plan, which added two strategic
objectives in education and democracy governance. The Mission has been unsuccessful
in obtaining Embassy clearance to increase staff. This continues to impede further
recruitment by the Mission to reach its authorized staff level.

Our field work revealed that, in general, weaknesses identified in the 2004 OIG Risk
Assessment had not been addressed and continue to be a vulnerability to the Mission.
These weaknesses were related to assessing and reporting results associated with
program activities.

We found that supporting documentation for the Data Quality Assessments (DQAs)
conducted in 2002 was not maintained by the Mission; therefore, we could not be sure of
the extent of procedures conducted by the Mission staff in conducting the required
DQAs. Moreover, the required DQA information was not included in the FY 2005 Annual
Report indicator tables as required.

Furthermore, due to staffing constraints, the Program Office is not able to provide full
guidance during various stages of program implementation. For example, during the
design stage, the Program Office is not able to fully address the requirements of the
strategic objective teams, i.e., preparation of program requirements and performance
monitoring plans. The teams are, in effect forced to develop their own overall
implementation plans without the benefit of a strong focus point where coordination
would provide synergy for accomplishing the objectives of the overall country strategy.
This fragmented approach has led to inconsistent application of Agency and local
programmatic requirements. For example, while initial PMPs were developed as
required, only some of the teams regularly updated these PMPs as required by ADS
203.3.4.7. In another case, one of the SO teams did not set annual targets for indicators
and reported on results only. While this approach demonstrated progress, it made it
difficult to assess reported results and therefore hampered meeting overall monitoring
and reporting requirements.

During the assessment stage, the Program Office was not able to coordinate overall
monitoring and evaluation requirements with the existing staffing level of one Program
Officer. Therefore, the SO teams were required to develop their own informal procedures
for monitoring and evaluating their respective programs and activities. This situation was
evidenced by variances in documentation, number of site visits, and overall monitoring
and evaluation efforts of the SO teams. In one case, the responsibility for preparing the
required SO close-out report was unclear. The Program Office thought that the SO team
was in the process of preparing the report and indicated so in the narrative section of the
FY 2005 Annual Report. Yet the current SO team leader was not aware of this
requirement. Furthermore, while there was adequate documentation available to support
results included in the FY 2004 and 2005 Annual Reports, we did note numerous minor
discrepancies between the source documents and the reported results. This indicates
that an adequate review and check of reported results was not conducted by the
Program Office. According to the Program Officer, due mainly to the lack of staffing
resources, he had only limited involvement in the development and submission of these
reports.



                                                                                           7
The Mission has tried to address its overall weaknesses in the Program Office by
resorting to creative methods to procure additional staffing resources. For example, the
Mission was in the process of hiring a monitoring and evaluation specialist using a
blanket purchase order. However, under this arrangement, the procurement specialist
will only be available on a limited basis. In addition, the Mission has plans to hire a US-
based firm on an Indefinite Quantity Contract (IQC) (200 days/year) to enhance and
develop the Mission’s M&E strategy and to provide DQA support. But these efforts will
only provide temporary relief to the Mission, and the Mission would be best served by
hiring permanent, dedicated monitoring and evaluation specialists to ensure that the
objectives of the new country strategy are met. Moreover, the short-term solutions to
procure additional staffing resources are not necessarily efficient and cost effective. For
example, last year the Mission spent over $350,000 on expenses associated with
temporary duty staffing support.

According to ADS 203, assessment of programs and activities is a critical part
of implementation. Assessment involves a systematic process of monitoring the
results of activities; collecting and analyzing performance information to track
progress toward planned results; using performance information to influence
program decision-making and resource allocation; and communicating results
achieved, or not attained, to advance organizational learning and success.

Assessment of programs and activities is a critical part of program implementation that
requires permanent and ongoing attention. Without a designated and permanent
monitoring and evaluations staff, the Mission cannot fully accomplish its role in
implementing programs, activities and projects. Therefore, we are making the following
recommendation.


       Recommendation No. 2: We recommend that USAID/Morocco address
       staffing-related challenges in its Program Office by seeking permanent
       staffing solutions to meet authorized staff levels.




                                                                                         8
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Morocco prepared a written response to our draft report. In their response, they
agreed with all findings and recommendations presented in this report. We evaluated
the comments, action taken, and documents prepared by USAID/Morocco and consider
that management decision has been reached for Recommendation No. 1 and final action
has occurred on Recommendation No. 2.

Management’s Comments are included in their entirety in Appendix II of this report.




                                                                                      9
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Dakar conducted this audit in accordance with generally
accepted government auditing standards to determine if USAID/Morocco’s programs and
activities ending in FY 2004 achieved their intended results. The audit was conducted at
USAID/Morocco in Rabat from February 23 to March 11, 2005.

The scope of the audit included a selection of activities based on our risk assessment of
programs and activities conducted under the previous country strategy of 1999, with
activities ending in FY 2004. We selected key activities from each of the strategic
objectives for detailed testing to gain assurance about the reported results and
accomplishments. In evaluating risk, we considered the nature of the activities, amount of
expenditures, reported results and whether similar activities were being carried forward
under the new country strategy.

The audit evaluated the Mission’s management controls to ensure that all aspects of
monitoring were aligned toward ensuring that the intended results were achieved. The audit
also included examinations of management controls, including review of regulations
promulgated by the Automated Directive Systems (ADS) and Mission Orders. We reviewed
controls over planning, monitoring and evaluation, and reporting of results.

Methodology
RIG/Dakar performed the audit with fieldwork taking place at USAID/Morocco. The audit
entailed reviewing controls over monitoring, controlling and reporting of activities for the
strategic objectives for FY 2004 to determine if the activities were performed as intended
and in accordance with USAID guidelines and to determine if intended results were
achieved.

The auditors met with appropriate Mission personnel, implementing partners and recipients
to assess activities. In addition, site visits were conducted to activities pre-selected based
on our risk assessment.

The audit was designed to determine if adequate internal controls were in place to ensure
compliance with USAID policies and procedures. Specifically, internal controls for
monitoring performance indicators, reporting data for baselines, and determining whether
quality data were collected and reported in accordance with Agency’s Automated Directives
System (ADS) guidance were assessed.

In assessing data quality and verifying and validating the performance data to source
documentation, we used a materiality threshold of 5 percent for transcription accuracy and
5 percent for computation accuracy.




                                                                                           10
                                                                               APPENDIX II




Memorandum
To:      Regional Inspector General, Dakar, Lee Jewel III
From: Monica Stein-Olson, Director /s/
CC:      Cc: J. Nicholson, FM, USAID/Cairo, L. Palmer, A/Controller
Date: July 28, 2005
Re:      Response to RIG/Dakar’s Draft Report on Audit of USAID/Morocco’s Results
         Achieved under the Country Strategic Plan with Activities Ending in FY 2004
         -
         (7-608-05-XXX-P) June 3, 2005.



Recommendation No. 1: We recommend that USAID/Morocco review and
update, as necessary, its current portfolio of programmatic Mission Orders
to incorporate the latest Automated Directive Systems requirements and
terminology and that it assign specific responsibility for requirements as
applicable.

The Mission has identified six (6) program-related MOs1 that will be updated
within a six month period by a committee chaired by the Program Officer that
will report back to the Management Control and Review Committee (MCRC).
The updates will include the necessary references to the ADS.




1
 The identified MOs are the following: 304 (Project Monitoring and Evaluation), 305 (The Design
and Approval of Projects), 307 (Project Implementation Reviews and Reports, 501 (Quality
Control of R4 Data), 502 (Mission and Central R4 Data Repository) and 505 (Accountability for
Host Country Contributions).


                                                                                            11
                                                                      APPENDIX II



The second part of this recommendation calls for assignment of specific
responsibility. The Program Officer is responsible for reviewing, finalizing and
preparing updated programmatic Mission Orders for the Director’s signature, a
task now included in his work objectives. The Program Officer will chair the
reviewing committee and be held accountable for achieving this task. The draft
Mission Order # 304, which is being finalized (see Attachment A), assigns
specific responsibilities as applicable to monitoring and evaluation. Updated
mission orders will include specific responsibilities as necessary.

In view of the above, the Mission believes that management decision has been
made and requests RIG/Dakar to resolve Recommendation No. 1 upon final
report issuance.

Upon final issuance of the identified Mission Orders, the Mission will report to
USAID/W that final action has been made and will associate its response with a
copy of the updated Mission Orders to request closure of Recommendation No.
1.


Recommendation No. 2: We recommend that USAID/Morocco address
staffing-related challenges in its Program Office by seeking permanent
staffing solutions to meet authorized staff levels.

RIG/Dakar and RIG/Cairo have highlighted and understand the limited staff at
USAID/Morocco. Facing a rapidly growing program, in response to underlying
staffing issues, USAID/Morocco has received permission to fill two Program
Office positions. One Program Specialist has recently been brought on board to
coordinate, monitor and evaluate all MEPI activities. This position reports directly
to the Mission Director (see Attachment B). The Mission is currently recruiting
for a second Program Specialist to focus on Development Outreach and
Communication efforts (see Attachment C).

In addition, the Mission procured the services of a monitoring and evaluation
specialist under a task order, who helped SO teams finalize and/or improve the
three Mission Performance Monitoring Plans (see Attachment D).

Furthermore, Mission is in the process of procuring the services of a US-based
firm to perform monitoring and evaluation for USAID/ Morocco’s program
(through an IQC under MOBIS GSA contract) for a minimum level of effort of 200
days/year (see Attachment E which consists of the three MAARD cover pages).



                                                                                 12
                                                                  APPENDIX II


The USAID/Cairo RCO anticipates this action will be completed by end July
2005.

Finally, a National Security Decision Directive (NSDD-38) Request is in process
for one U.S. direct hire position (Assistant Director) and an International
Development Intern (IDI) position in the Program Office (See State cable 121561
dated June 29, 2005 appended as Attachment F).

Based on the above, we hereby request RIG/Dakar to close this
recommendation upon issuance of the final report.




                                                                            13
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
